No.

IN THE

Supreme (Enurt of tip JUmteb
Chris Anthony George,
Petitioner,

v.
Raymond Madden, Warden,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

Cuauhtemoc Ortega
Interim Federal Public Defender
Mark R. Drozdowski*
Moriah Sage Radin
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
* Counsel of Record

QUESTIONS PRESENTED
1.

In United States v. Sineneng-Smith, 140 S. Ct. 1575, 1578 (2020),

this Court held that the Ninth Circuit “departed so drastically from the
principle of party presentation” of issues to require reversal because
“[i]nstead of adjudicating the case presented by the parties,” the court
decided a criminal appeal on an issue it raised on its own. Did the Ninth

Circuit violate this principle in petitioner’s habeas corpus appeal where
respondent agreed with petitioner in his briefs that the district court
correctly held an evidentiary hearing and properly reviewed petitioner’s

claim de novo, but the Court of Appeals denied relief on the ground that
petitioner’s pro se state court allegations were insufficient, an issue it raised
three days before oral argument and decided without briefing?

2.

Does a pro se habeas petitioner sufficiently plead a claim of

ineffective assistance of counsel by alleging and supporting with available

documentary evidence that his lawyer advised him to reject a plea offer of
three years because he could beat the charges; he would have taken the offer

if counsel had advised him to do so; the court would have accepted his plea (it
did for his two co-defendants); the sentence under the offer’s terms was less

severe than the 21-year sentence imposed after conviction at trial; and any
strategy for beating the charges was wholly unreasonable?

i

PARTIES AND LIST OF PRIOR PROCEEDINGS

The parties to this proceeding are Petitioner Chris Anthony George and
Respondent Raymond Madden, Warden. The California Attorney General
represents Respondent.

On April 12, 2013, George was convicted by jury in the Riverside
County Superior Court in People v. George, case no. RIF1203066, Judge
Michael B. Donner, presiding. Petitioner’s Appendix filed concurrently

herewith (“Pet. App.”) 13, 201; reporter’s transcript of trial (“RT”), district
court docket 11, lodgment 13, at 408-410.1 On June 28, 2013, Judge Donner
sentenced George and entered judgment against him. Clerk’s transcript of
trial (“CT”), docket 11, lodgment 12, at 215-216.

The California Court of Appeal, per the Honorable Manuel A. Ramirez,
Art W. McKinster, and Douglas P. Miller, affirmed the judgment on appeal in
an unpublished opinion filed on November 14, 2014 in People v. George, case

no. E059313. Pet. App. 200-222. The California Supreme Court denied
George’s petition for review on January 21, 2015 in case no. S223157. Pet.
App. 199.

1 Unless otherwise noted, all references to “docket” are to the district
court docket in George’s habeas corpus case.
ii

On June 23, 2015, Judge David A. Gunn denied George’s habeas corpus

petition in In the Matter of the Petition of Chris Anthony George for Writ of
Habeas Corpus, Riverside County Superior Court case no. RIC 1507325. Pet.

App. 71-73. On September 4, 2015, the California Court of Appeal denied

George’s habeas petition in In re Chris Anthony George on Habeas Corpus,

case no. E064220. Pet. App. 69. On January 27, 2016, the California

Supreme Court denied George’s habeas petition in Chris Anthony George on
Habeas Corpus, case no. S229888. Pet. App. 68.

On November 27, 2017, United States Magistrate Judge Andrew J.
Wistrich filed a report recommending that George’s habeas corpus petition be

granted in Chris Anthony George v. Raymond Madden, Warden, C.D. Cal.
case no. ED CV 16-1016-RGK-AJW. Pet. App. 29. On February 9, 2018,
United States District Judge R. Gary Klausner denied George’s petition and
entered judgment against him. Pet. App. 12-13.

On February 21, 2020, the Ninth Circuit, per the Honorable Kim

McLane Wardlaw and Carlos T. Bea, Circuit Judges, and the Honorable
Danny J. Boggs, Circuit Judge for the United States Court of Appeals for the
Sixth Circuit, sitting by designation, affirmed the judgment in an

unpublished opinion in Chris Anthony George v. Raymond Madden, Warden,
case no. 18-55258. Pet. App. 2-4. On April 30, 2020, the panel denied
George’s petition for panel rehearing and rehearing en banc. Pet. App. 1.

iii

TABLE OF CONTENTS
PAGE
INTRODUCTION

1

OPINIONS BELOW

4

JURISDICTION

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE

7

I.

Trial

7

II.

State Appeal and Habeas Actions

8

HI.

Federal Habeas Action

11

A.

The Magistrate Judge Recommends Relief in a 29-Page
Report Issued After an Evidentiary Hearing11

B.

The District Court Rejects the Unopposed
Recommendation and Denies Relief in a
Three-Sentence Order

18

The Ninth Circuit Affirms the Denial of Relief on a
Ground Not Raised by Either Party or the District
Court

19

C.

REASONS FOR GRANTING THE WRIT

20

I.

AEDPA Standards

20

II.

The Ninth Circuit Never Adjudicated the Case Presented by
the Parties But Instead Decided George’s Appeal on a
Question It Raised on Its Own Three Days Before Oral
Argument and Without Briefing on the Issue

21

George Adequately Pleaded an Ineffective Assistance of
Counsel Claim in State Habeas and 28 U.S.C. § 2254(d)
Does Not Bar a Federal Evidentiary Hearing or Relief...

25

III.

A.

Habeas Pleading Law
iv

26

TABLE OF CONTENTS

PAGE

B.

George’s State Court Allegations and Evidence

30

C.

George Adequately Pleaded His Claim and
the State Court’s Summary Denial Is
Unreasonable Under § 2254(d)

36
40

CONCLUSION

v

TABLE OF AUTHORITIES

PAGE(S)
Federal Cases

Amado v. Gonzalez,
758 F.3d 1119 (9th Cir. 2014)

19, 24

Bemore v. Chappell,
788 F.3d 1151 (9th Cir. 2015)

12

Blackledge v. Allison,
431 U.S. 63 (1977)

27

Boumediene v. Bush,
553 U.S. 723 (2008)

25

Browder v. Director, Dep’t of Corrections,
434 U.S. 257 (1978)

12

Brumfield v. Cain,
135 S. Ct. 2269 (2015)

38, 39

Coleman v. Mitchell,
268 F.3d 417 (6th Cir. 2001)

12

Cullen v. Pinholster,
563 U.S. 170 (2011)

25. 37

Davis v. Silva,
511 F.3d 1005 (9th Cir. 2008)

26

Day v. McDonough,
547 U.S. 198 (2006)

24

Doody v. Ryan,
649 F.3d 986 (9th Cir. 2011) (en banc)

26

Dorsey v. Kelly,
112 F.3d 50 (2d Cir. 1997)

38

Earp v. Ornoski,
431 F.3d 1158 (9th Cir. 2005)

38, 39

vi

TABLE OF AUTHORITIES
PAGE(S)

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

20, 21

Haines v. Kerner,
404 U.S. 519 (1972) (per curiam)

26

Hernandez v. Holland,
750 F.3d 843 (9th Cir. 2014)

24

James v. Ryan,
679 F.3d 780 (9th Cir. 2012),
vacated, 568 U.S. 1224 (2013) (Mem.)

12

James v. Ryan,
733 F.3d 911 (9th Cir. 2013)

12

Johnson v. Williams,
568 U.S. 289 (2013)

12

Lafler v. Cooper,
566 U.S. 156 (2012)

25, 35, 38

Laws v. Lamarque,
351 F.3d 919 (9th Cir. 2003)

12

Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

21

Mayle v. Felix,
545 U.S. 644 (2005)

27, 36

Miller-El v. Cockrell,
537 U.S. 322 (2003)

26

Nunes v. Mueller,
350 F.3d 1045 (9th Cir. 2003)

39

Panetti v. Quarterman,
551 U.S. 930 (2007)

21

Vil

TABLE OF AUTHORITIES
PAGE(S)

Reeves v. Alabama,
138 S. Ct. 22 (2017) (Sotomayor, J., dis. from denial of cert.)

37

Reynoso v. Giurbino,
462 F.3d 1099 (9th Cir. 2006)

24

Ross v. Williams,
950 F.3d 1160 (9th Cir. 2020) (en banc)

28, 38

Schriro v. Landrigan,
550 U.S. 465 (2007)

39

Strickland v. Washington,
466 U.S. 668 (1984)

35

Taylor v. Maddox,
366 F.3d 992 (9th Cir. 2004)

26

Turner v. Duncan,
158 F.3d 449 (9th Cir. 1998)

18

United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020)

1, 3, 23, 24

Wilson v. Sellers,
138 S. Ct. 1188 (2018)

21

Woodford v. Garceau,
538 U.S. 202 (2003)

20

State Cases

In re Reno,
283 P.3d 1181 (Cal. 2012)

37

In re Rosenkrantz,
59 P.3d 174 (Cal. 2002)

29

Jackson v. Superior Court,
118 Cal. Rptr. 3d 81 (Cal. Ct. App. 2010)

28

viii

TABLE OF AUTHORITIES

PAGE(S)
People v. Duvall,
886 P.2d 1252 (Cal. 1995)

passim

People v. Romero,
883 P.2d 388 (Cal. 1994)

27, 29

Federal Constitution, Rules and Statutes
28 U.S.C. § 1254

5

28 U.S.C. § 1291

5

28 U.S.C. § 2241

5

28 U.S.C. § 2253

5

28 U.S.C. § 2254

passim

Rules Governing Section 2254 Cases in the United States District
Courts, Rule 2(c)

27
5, 30

U.S. Const., 6th Amend.
State Constitution, Rules and Statutes

Cal. Const., Art. I, § 15

31

Cal. R. Ct. 4.551(a)(1)

28

ix

PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Chris Anthony George petitions for a writ of certiorari to review the

judgment of the Ninth Circuit Court of Appeals affirming the judgment
against him in his habeas corpus action.

INTRODUCTION

The Ninth Circuit never answered the question presented by Petitioner
and Respondent - whether George was entitled to habeas corpus relief on de

novo review based on the evidence presented at a federal evidentiary hearing
on his claim that he received ineffective assistance of counsel during the plea
bargaining process. Instead, the court denied relief on a question it raised

sua sponte three days before oral argument — whether George’s pro se

allegations and evidence in state habeas satisfied 28 U.S.C. § 2254(d),
thereby allowing the district court to hold an evidentiary hearing and assess
George’s claim de novo. The Ninth Circuit thus repeated its error from
United States v. Sineneng-Smith, 140 S. Ct. 1575, 1578 (2020), where

“[i]nstead of adjudicating the case presented by the parties,” it raised and
resolved a new issue on its own, there against the government.
1

Here, after the magistrate judge recommended relief based solely on

the state court record, Respondent argued that de novo review applied and an
evidentiary hearing was necessary to resolve George’s claim. When the
magistrate judge recommended relief again after the hearing in a 29-page
report, resolving all key fact and credibility determinations in George’s favor,

Respondent did not object to the report, effectively conceding the case. After

the district court rejected the unopposed recommendation in a three-sentence
order, the Ninth Circuit granted a certificate of appealability on the question

“whether counsel was ineffective for advising appellant to reject a plea offer
that would have resulted in a three-year prison term” but instead took the
case to trial, resulting in a 21-year sentence. The parties agreed in their

briefs that the magistrate judge properly held an evidentiary hearing and
that de novo review applied.

The Ninth Circuit never answered the question it certified. Instead, it
answered the question it raised against George, holding that in state habeas,

George, an incarcerated pro se inmate who attended special education classes

in school, “did not allege sufficient facts regarding how his attorney

‘misadvised’ him” “to reject a favorable plea deal.” The Ninth Circuit ruled
without ordering briefing on whether § 2254(d) was satisfied based on the
state court record.

2

This Court’s intervention is required because “the appeals panel
departed so drastically from the principle of party presentation as to
constitute an abuse of discretion.” Sineneng-Smith, 140 S. Ct. at 1578. The

Court should “vacate the Ninth Circuit’s judgment and remand the case for
an adjudication of the appeal attuned to the case shaped by the parties rather

than the case designed by the appeals panel.” Id. George’s position is that

the magistrate judge got it right and the district court’s three-sentence order
rejecting the 29-page report provides no basis to deny relief. He should

receive the opportunity to have his argument ruled on by the Ninth Circuit.

This case gives the Court the opportunity to make clear that SinenengSmith’s party presentation principle applies in habeas cases when the State’s

agreement with the petitioner that a claim is reviewed de novo is based on a
deliberate litigation decision.

If the Court does not grant certiorari on the foregoing issue, it should

on the question decided by the Ninth Circuit: Whether George alleged
sufficient facts in state court to render the state courts’ summary denial of
his claim unreasonable under § 2254(d). As instructed by the form petition

he filled out, George specifically stated what his lawyer did and said (“I don’t
want you to mess up your life like both of your co defendants therefore we
will not take the deal. I can ‘beat the charges.’”); when and where the

misadvice occurred (after a court session on October 17, 2012); who was
3

present when it occurred (George, his lawyer, and his two co-defendants); and

how it affected his trial (the misadvice “caused Petitioner to proceed to trial
rather than to accept an offer of a plea bargain that would have been

approved by the court”; “absent ineffective counsel, he would have accepted a
plea offer” for a “favorable sentence”). The Ninth Circuit’s ruling that these

allegations by an incarcerated pro se petitioner with a second-grade reading

level are insufficient is contrary to habeas pleading standards articulated by
this Court and render federal habeas a dead letter. This case gives the Court

the opportunity to reaffirm that although the 28 U.S.C. § 2254(d) standard
may be difficult to meet, it is not impossible to surmount, and it allows

federal fact development and relief in appropriate cases.

OPINIONS BELOW
The Ninth Circuit’s order denying George’s petition for panel rehearing
and rehearing en banc is unreported. Pet. App. 1. The Ninth Circuit’s
opinion affirming the judgment against George is unreported. Pet. App. 2-4.

The district court’s judgment and its order denying George’s habeas petition

are unreported. Pet. App. 12-13.

The opinion by the California Court of Appeal affirming the judgment

against George on direct appeal is unreported, as is the order by the
California Supreme Court denying George’s petition for review. Pet. App.

199-222. The orders by the Riverside County Superior Court, California
4

Court of Appeal, and the California Supreme Court denying George’s habeas

corpus petitions are unreported. Pet. App. 68-73.
JURISDICTION

The Ninth Circuit’s judgment affirming the judgment against George

was filed and entered on February 21, 2020. Pet. App. 2; Ninth Circuit
docket 59. The Ninth Circuit’s order denying George’s timely-filed petition

for panel rehearing and rehearing en banc was entered on April 30, 2020.

Pet. App. 1; Ninth Circuit docket 65. The district court had jurisdiction
under 28 U.S.C. §§ 2241 and 2254. The Ninth Circuit had jurisdiction
pursuant to 28 U.S.C. §§ 1291 and 2253. This Court has jurisdiction under

28 U.S.C. § 1254(1). This petition is timely under Supreme Court Rule 13.1
and the Court’s order of March 19, 2020 extending the filing deadline for

certiorari petitions by another 60 days (here, to September 28, 2020) because

of Covid-19.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the U.S. Constitution
“In all criminal prosecutions, the accused shall enjoy the right to a

speedy and public trial, by an impartial jury of the state and district wherein
the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of

the accusation; to be confronted with the witnesses against him; to have
5

compulsory process for obtaining witnesses in his favor, and to have the

assistance of counsel for his defense.”
28 U.S.C. § 2254(d)

(1) application for a writ of habeas corpus on behalf of a person in

custody pursuant to the judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the merits in State court

proceedings unless the adjudication of the claim

(2) resulted in a decision that was contrary to, or involved an
unreasonable application of clearly established Federal law, as determined by

the Supreme Court of the United States; or
(3) resulted in a decision that was based on an unreasonable

determination of the facts in light of the evidence presented in the State court
proceeding.”

28 U.S.C. § 2254(e)
“(1 ) In a proceeding instituted by an application for a writ of habeas

corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to

be correct. The applicant shall have the burden of rebutting the presumption
of correctness by clear and convincing evidence.

6

(5) If the applicant has failed to develop the factual basis of a claim in
State court proceedings, the court shall not hold an evidentiary hearing on

the claim unless the applicant shows that(A) the claim relies on-

(1) a new rule of constitutional law, made retroactive to
case5 on collateral review by the Supreme Court, that was
previously unavailable; or

(11) a factual predicate that could not have been previously
discovered through the exercise of due diligence; and

(B) the facts underlying the claim would be sufficient to establish
by clear and convincing evidence that but for constitutional error, no

reasonable factfinder would have found the applicant guilty of the
underlying offense.”

STATEMENT OF THE CASE
I.

Trial
Chris George and two co-defendants, Ural Gamble and Chaz

MacFalling, faced over 20 years in prison for having sexual intercourse with
an intoxicated, underage girl. Pet. App. 15. At the time of the offense,

George was 18 years old and had the reading and language skills of a second

grader; he attended special education classes in school. Pet. App. 16, 41, 8586, 166-175.
7

The prosecutor offered a three-year sentence with half-time credits,

meaning the defendants could be released in 18 months, in exchange for a
guilty plea and lifetime registration as a sex offender. Pet. App. 15-18. On

the advice of their lawyers, George’s two co-defendants took the deal. Pet.
App. 15. On the advice of his lawyer, Sean Davitt, George rejected the offer

and went to trial. Pet. App. 15-16. On April 12, 2013, George was convicted
by a Riverside County, California jury of rape of an intoxicated person (Count

1), lewd acts with a person under the age of 14 (Count 2), and active
participation in a criminal street gang (Count 3). Pet. App. 16, 27; RT 408-

410. George was sentenced to 18 years, four months in state prison, 10 years

resulting from a gang enhancement. Pet. App. 27; CT 215-216.

II.

State Appeal and Habeas Actions

On direct appeal, George raised several claims not at issue here. The

California Court of Appeal affirmed the judgment with modifications in an

unpublished opinion filed on November 14, 2014 and remanded for
resentencing. Pet. App. 200-202. George was re-sentenced to 21 years in
state prison. Pet. App. 27. The California Supreme Court denied George’s

petition for review on January 21, 2015. Pet. App. 199.

On June 16, 2015, George raised the ineffective assistance of counsel
claim that is the subject of this Petition in a pro se habeas corpus petition

filed in the Riverside County Superior Court. Pet. App. 74-198. George
8

alleged that his lawyer provided ineffective assistance by recommending that

he reject the plea deal and go to trial, and that but for counsel’s advice he

would have accepted the offer. Pet. App. 76-86, 179-194. The petition
contained school and prison records showing that George was 18 years old at

the time of the offense, had the reading and language skills of a first or
second grader, functioned in the bottom tenth percentile or in the “low,”

“deficient,” or “extremely low range” in listening and reading comprehension,

auditory memory and problem solving, and was diagnosed with auditory

processing and sensory motor skills disorders. Pet. App. 160-178 (Exhibit
10). The petition contained a declaration from George’s mother, Carol King,

stating that she had hired Davitt to represent her son and that Davitt

advised George to reject the plea offer and go to trial. Pet. App. 125-127
(Exhibit 6).

The Superior Court denied the petition a week later by checking two

boxes on a form. Pet. App. 71. One checkmark denoted that “[t]he petition is
denied because the petition fails to state a prima facie factual case supporting

the petitioner’s release. . . . The petition makes assertions regarding the
applicable law that are contrary to established California case decisions.” Id.

The other checkmark indicated that “[t]he petition is denied because the
petition fails to state a prima facie factual case supporting the petitioner’s

release. . . . While the petition states a number of factual conclusions, these

9

broad conclusions are not backed up with specific details, and/or are not
supported by the record in the case.” Id.

On August 17, 2015, George reasserted his claim in a pro se habeas
petition filed in the California Court of Appeal. Docket 11, lodgment 5.

Respondent acknowledged in his Answer in district court that this “petition is
largely identical to the petition previously filed in the superior court.” Docket

10-1 at ECF p. 8.2 The court denied the petition a little over two weeks later

in an order stating “[t]he petition for writ of habeas corpus is DENIED.” Pet.
App. 69.
George reasserted his claim in a pro se habeas petition filed in the

California Supreme Court on October 13, 2015. Docket 11, lodgment 7.
Respondent acknowledged in his Answer in district court that the “petition
appears to be identical to the one presented in the court of appeal.” Docket
10-1 at ECF pp. 8-9. The California Supreme Court summarily denied the

petition January 27, 2016. Pet. App. 68. George never received discovery or
an evidentiary hearing in state court.

2 “ECF p.” refers to the page number stamped at the top of filed
documents by the district court’s electronic filing system.
10

III.

Federal Habeas Action

A.

The Magistrate Judge Recommends Relief in a 29-Page
Report Issued After an Evidentiary Hearing

On May 17, 2016, George filed a pro se habeas petition in district court

raising his ineffective assistance claim. Docket 1. The claim is raised in

grounds 1-3 of the petition. Pet. App. 28. Respondent admitted in his
Answer that the petition “appears to raise the same claims, employ the same

points and authorities, and rely on the same ten exhibits that George
presented in the state courts.” Docket 10-1 at ECF p. 9. Respondent
conceded that George’s petition was timely and that his claims were

exhausted and not procedurally defaulted. Docket 10 at ECF p. 1.

Respondent argued that because the state court reasonably denied the claims

on the merits, relief was unavailable under 28 U.S.C. § 2254(d). Id.
Respondent claimed that George failed to overcome the presumption that his

trial lawyer performed competently because, among other things, “he has
neither provided nor, it appears, sought explanation from counsel.” Docket
10-1 at ECF p. 15. Respondent said George was not entitled to an
evidentiary hearing. Docket 10 at ECF p. 2.

On February 28, 2017, United States Magistrate Judge Andrew J.

Wistrich recommended that relief be granted on the basis of the state court
record in a 30-page report that canvassed the law, the record, and George’s

11

allegations and supporting evidence. Docket 14. He explained that George’s
allegations were made under penalty of perjury, are presumed to be true, and
were supported by the record. Id. at 12-13.3 The report concluded that “[i]t

was unreasonable for the state court to conclude that advising petitioner to
reject an extremely favorable plea offer was within the range of reasonable

professional assistance,” and that “to the extent that the state court rejected
petitioner’s claim” for lack of prejudice, “its determination was an

unreasonable application of clearly established federal law.” Id. at 27, 29-30.
Accordingly, 28 U.S.C. § 2254(d) did not bar relief and relief was proper on

the existing record. Id. at 9-11.4

3The magistrate judge correctly concluded that George’s pro se
allegations in his petition, made under penalty of perjury, are to be
considered as an affidavit. Id.', Laws v. Lamarque, 351 F.3d 919, 924 (9th
Cir. 2003).
4 Numerous federal habeas courts have granted relief on an ineffective
assistance claim without holding an evidentiary hearing. See, e.g., James v.
Ryan, 679 F.3d 780, 799-801, 820-821 (9th Cir. 2012) (collecting cases); see
also Bemore v. Chappell, 788 F.3d 1151, 1155, 1160, 1176-1177 (9th Cir.
2015); Coleman v. Mitchell, 268 F.3d 417, 432-434, 452-454 (6th Cir. 2001);
Browder v. Director, Dep’t of Corrections, 434 U.S. 257, 266 n.10 (1978). This
Court vacated the grant of relief in James and remanded for the Ninth
Circuit to consider Johnson v. Williams, 568 U.S. 289 (2013). Ryan v. James,
568 U.S. 1224 (2013) (Mem.). On remand, the Ninth Circuit concluded that
Johnson v. Williams did not change the result and reaffirmed its decision to
grant relief on the ineffective assistance claim without remanding for an
evidentiary hearing. James v. Ryan, 733 F.3d 911, 912, 916 (9th Cir. 2013).
12

Respondent objected to the report. Pet. App. 55-67. Respondent

argued that while the presumption that “the factual assertions in the Petition

are correct” “may be sufficient to overcome the relitigation bar applicable to

petitions filed by state prisoners,” “it is not sufficient to support a grant of
relief.” Pet. App. 55. According to Respondent, the report’s conclusion “that

the rejections by the California courts of George’s IAC [ineffective assistance
of counsel] claim were unreasonable” “merely lifts the application of AEDPA’s
deferential standard, leaving this Court to determine, under de novo review,
whether George is entitled to relief.” Pet. App. 56. According to Respondent,

that determination could only be made after an evidentiary hearing, since no
court has ever provided “defense counsel an opportunity to be heard.” Id.

Respondent submitted a declaration from trial counsel Davitt stating

that he had reviewed the report and that “it appears that the main issue is
whether I insisted Mr. George go to trial rather than take the plea deal of 3

years.” Pet. App. 65. Davitt claimed that “[a]t no time did [George] express a

willingness to take the 3-year deal, without condition. He maintained that he

would accept a plea on the condition that the Deputy District Attorney

remove the requirement of life-time registration as a sex offender,” which the
prosecutor refused to do. Id. Davitt did not deny advising George to reject

the deal; he did not describe any advice he gave George on whether to take
the deal. Pet. App. 64-66.
13

In his reply to Respondent’s objections, George submitted a letter from
him to Davitt dated October 23, 2014, while George’s direct appeal was still
pending. George said in the letter that Davitt advised him not to take the

three-year offer. Docket 17 at ECF p. 6. The letter concluded by “asking that
you please provide [a] declaration in hopes that I may obtain a new trial.” Id.

George sent a second request to Davitt for a declaration in April 2015. Davitt
did not respond to either request. Pet. App. 19.

On April 25, 2017, the magistrate judge ordered an evidentiary hearing
and appointed counsel for George. Pet. App. 51-54. The court noted that “[i]n
his objections to the report, respondent for the first time disputes petitioner’s

allegations. Respondent argues that in light of the now-present factual

dispute, the Court must conduct an evidentiary hearing before granting

relief.” Pet. App. 52. The court noted that “Respondent obviously was on
notice of petitioner’s sworn allegations as well as the fact that nothing in the

record suggested that his allegations were untrue” yet “failed to dispute
petitioner’s version of events or otherwise alert the Court that a factual

dispute existed” until after the court issued its report. Pet. App. 52-53. The

court noted that it had the discretion to decline to consider new arguments
and allegations raised in an objection to a report, but that in the interest of

justice, it was ordering an evidentiary hearing. Pet. App. 53.

14

At the hearing, the court heard testimony from George, his mother, his

sister, his co-defendant Gamble, the trial lawyer for co-defendant MacFalling,
Graham Donath, and Davitt, and received numerous exhibits, including

Davitt’s case files. Pet. App. 19, 30-31; dockets 30-32, 36, 38-39, 57.

George testified that Davitt advised him to reject the plea offer, he
would have taken the deal if counsel had recommended it, but he turned

down the offer based on counsel’s advice. Docket 32.
George’s mother testified that Davitt recommended taking the case to

trial; he “said there was no witness and something about DNA evidence.”

Docket 31 at ECF p. 3.5

5 As described by the state appellate court, the prosecution presented
evidence that a condom found in a toilet in the abandoned house contained
“DNA which matched a buccal swab taken from [George], as well as DNA
from Ural Gamble.” Pet. App. 204. “The interior and exterior of the other
condom taken from the toilet tank had female DNA matching Jane Doe’s, and
male DNA matching” George. Id. Before trial, Davitt moved to suppress the
condoms containing George’s DNA. He argued that the search was invalid
because the officers had not obtained a warrant and that George had
standing to raise a Fourth Amendment claim because the abandoned house
had belonged to his friend’s neighbor and he and the friend had used the
building as a “‘crash pad and party house’” after the neighbor had been
evicted. Pet. App. 21. The court denied the motion, ruling that George had
no expectation of privacy in the house: George did not live there, was not a
guest of anyone with a possessory interest in the house, and the house was
vacant, unfurnished, unlocked, and abandoned with a notice posted out front
“informing persons to call a bank or real estate company with questions
concerning the property.” Pet. App. 21-22.

15

George’s sister testified that Davitt told her to encourage George to

reject the deal “because of the DNA being contaminated.” Docket 31 at EOF

p. 6; docket 36 at 23.
Gamble testified that he overheard Davitt pump up George about going

to trial but that he, Gamble, took the deal on his lawyer’s advice. Docket 31
at ECF p. 8.

Donath testified that he recommended that his client, MacFalling, take

the deal because he did not see a viable defense to the charges, and that
“‘[t] he gang [sentencing] enhancements alone made it an extremely big risk to

go to trial.’” Docket 31 at ECF pp. 9-10.
Davitt denied advising George to reject the plea deal. Docket 36 at 121122. He also testified that before the deal was offered, he had concluded that

“a lot of evidence was pointing in th[e] direction” that George was “good for

the charge” (id. at 100); that the plea offer was “an amazing deal,”
“incredible” (id. at 131); but that he nevertheless (1) never gave George his

independent judgment on whether he thought the plea deal was worth
accepting or rejecting; (2) never told George directly that he thought he
should take the deal; and (3) never recommended to George that he take or

not take the deal. Pet. App. 94, 122, 131. Davitt testified that although he

believed that he should retain a DNA expert, “[w]e did not hire or consult

with a DNA expert to assist in Mr. George’s defense,” even though the
16

argument that the DNA evidence was contaminated was his only theory for

acquittal. Docket 31 at ECF p. 13. Counsel’s other hope for acquittal was

that the victim would not appear for trial. Id. at ECF pp. 12-13. She did.

Pet. App. 31-32, 202.
Respondent argued in his post-hearing brief that the court should deny

relief. Pet. App. 46. But Respondent also acknowledged that George “had

pleaded a prima facie case for relief’ in state court; an evidentiary hearing

was “warranted,” “required,” “completely proper,” and “correctly conducted”;
and “[t]he court properly has proceeded to determine the issues de novo.”

Pet. App. 46-50.

On November 27, 2017, the magistrate judge recommended relief in a
thorough 29-page report canvassing the law, independently reviewing the

state court record, and making factual and credibility determinations in

George’s favor. Pet. App. 15-43. He found that Davitt advised George to
reject the offer and that this was deficient performance in light of the

strength of the prosecution’s case, the lack of any viable defense, and the fact

that the offer was “extremely favorable.” Pet. App. 19, 30-33. The magistrate

judge also ruled that George established deficient performance even if the
court credited Davitt’s testimony. “(E]ven if the testimony of petitioner and
his family was rejected, and Davitt’s testimony was accepted, Davitt’s lack of

advice regarding the risks and benefits of the offer fell outside the range of
17

reasonable professional assistance and deprived petitioner of the ability to
make an informed choice.” Pet. App. 38.

Respondent did not object to the report and thereby consented to the
court’s proposed fact findings and waived any objections thereto. Pet. App.

14; Turner v. Duncan, 158 F.3d 449, 455 (9th Cir. 1998).
B.

The District Court Rejects the Unopposed
Recommendation and Denies Relief in a ThreeSentence Order

On February 9, 2018, without taking any new evidence, District Judge
R. Gary Klausner rejected the unopposed recommendation and denied relief

in a three-sentence order that did not mention the standard of review or say
that the magistrate judge clearly erred in any fact finding. The order states:
Petitioner seeks a writ of habeas corpus on the ground of ineffective
assistance of counsel. Upon review of the parties’ arguments, the
Court DENIES the Petition for the following reasons: (1) the facts
and evidence indicate that Petitioner made the decision to go to trial
on his own volition; (2) Petitioner has failed to provide evidence
showing that Attorney Davitt’s advice was ungrounded or otherwise
unreasonable; (3) Petitioner has failed to show that Attorney Davitt
provided false, misleading, or otherwise inaccurate information to
him. While in hindsight, Attorney Davitt’s advice led to a negative
outcome for Petitioner, this alone does not constitute adequate
grounds for prevailing on a claim for ineffective assistance of
counsel.

Pet. App. 13. The district court denied a COA, saying an “appeal will be
futile.” Pet. App. 10.

18

C.

The Ninth Circuit Affirms the Denial of Relief on a
Ground Not Raised by Either Party or the District
Court

On August 30, 2018, the Ninth Circuit granted a COA on the question
“whether counsel was ineffective for advising appellant to reject a plea offer

that would have resulted in a three-year prison term.” Pet. App. 9.
In their Ninth Circuit briefs, the parties agreed that 28 U.S.C.

§ 2254(d) had been satisfied based on the state court record and argued over
whether George was entitled to relief on de novo review based on the evidence

presented at the federal hearing. Respondent stated in his Appellee’s Brief

that “the correct standard for this Court to apply in reviewing the district
court’s denial of George’s habeas petition is the de novo standard with a

review of the facts, including those developed in the district court, for clear

error”; “the deferential standard of review under § 2254(d) and the limitation
to the state court record does not apply here.” Pet. App. 8.
Three days before oral argument, the panel issued an order stating that

“[alt oral argument, the parties should be prepared to address the standard of
review applicable to this case. See 28 U.S.C. § 2254(d)(1); Amado v. Gonzalez,
758 F.3d 1119, 1133 n. 9 (9th Cir. 2014).” Pet. App. 5. Amado states that
federal habeas courts “have the obligation to apply the correct standard, for

the issue is non-waivable.” 758 F.3d at 1133 n.9.

19

At argument, the panel’s questions for George focused on his

allegations in state habeas. Ninth Circuit docket 58. The panel did not call
for any briefing on the question whether § 2254(d) was satisfied based on the

state court record. The panel affirmed the judgment against George on the

ground that in state habeas he “did not allege sufficient facts regarding how
his attorney ‘misadvised’ him” “to reject a favorable plea deal” and “that the
state court’s holding that George failed to state a prima facie case for habeas

relief is not unreasonable” under 28 U.S.C. § 2254(d). Pet. App. 3-4.
REASONS FOR GRANTING THE WRIT

I.

AEDPA Standards

George filed his federal habeas petition after AEDPA’s effective date;
therefore, his petition is governed by AEDPA. Woodford v. Garceau, 538 U.S.

202, 205, 210 (2003). To obtain relief under AEDPA, a petitioner must show
that his constitutional rights were violated under 28 U.S.C. § 2254(a) and
that § 2254(d) does not bar relief on any claim adjudicated on the merits in
state court. Frantz v. Hazey, 533 F.3d 724, 735-737 (9th Cir. 2008) (en banc).

Under § 2254(d), a habeas petition challenging a state court judgment:

shall not be granted with respect to any claim that
was adjudicated on the merits in State court
proceedings unless the adjudication of the claim-(l)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted
20

in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.
The relevant state court decision for purposes of federal review is the

last reasoned decision that resolves the claim at issue. Wilson v. Sellers, 138
S. Ct. 1188, 1192 (2018).

When a federal court concludes that the state court decision is contrary

to or an unreasonable application of federal law, or is based on an
unreasonable factual determination, it reviews the claim de novo in assessing

whether the petitioner’s constitutional rights were violated. Panetti v.

Quarterman, 551 U.S. 930, 953-954 (2007); Frantz, 533 F.3d at 735; Maxwell
v. Roe, 628 F.3d 486, 506 (9th Cir. 2010).

II.

The Ninth Circuit Never Adjudicated the Case Presented by
the Parties But Instead Decided George’s Appeal on a
Question It Raised on Its Own Three Days Before Oral
Argument and Without Briefing on the Issue

The Ninth Circuit never answered the question presented by Petitioner
and Respondent — whether George was entitled to habeas corpus relief on de

novo review based on the evidence presented at a federal evidentiary hearing

on his claim that he received ineffective assistance of counsel during the plea
bargaining process. Instead, the court denied relief on a question it raised

sua sponte three days before oral argument — whether George’s pro se

allegations and evidence in state habeas satisfied 28 U.S.C. § 2254(d),

21

thereby allowing the district court to hold an evidentiary hearing and assess
George’s claim de novo.
In his answer to George’s federal petition, Respondent did not dispute

George’s factual allegations but instead argued that § 2254(d) barred relief

accepting the truth of George’s claims. After the magistrate judge issued a
report recommending that relief be granted based solely on the state court

record, Respondent changed his position and argued that while George’s

allegations “may be sufficient to overcome the relegation bar applicable to
petitions filed by state prisoners,” they were “not sufficient to support a grant
of relief,” but instead “merely lift[ed] the application of AEDPA’s deferential

standard, leaving this Court to determine, under de novo review, whether

George is entitled to relief.” Respondent argued that an evidentiary hearing
was required to allow trial counsel to tell his side of the story (counsel never
responded to the incarcerated George’s requests for a declaration while his
case was in state court).

The magistrate judge accepted Respondent’s argument, ordered an
evidentiary hearing, and appointed counsel for George. In his post-hearing

brief, Respondent reaffirmed his position that the court correctly held a
hearing and “properly . . . proceeded to determine the issues de novo.” The
magistrate judge recommended relief in a report to the district judge, making

all key factual and credibility determinations in George’s favor. Respondent
22

did not object to the report, essentially conceding the case. The district judge
rejected the unopposed recommendation in a three-sentence order that did
not mention the standard of review or say the magistrate judge clearly erred

in any fact finding.
In his brief in the Ninth Circuit, Respondent reaffirmed his position

that “the correct standard for th[e] Court to apply in reviewing the district

court’s denial of George’s habeas petition is the de novo standard”; “the
deferential standard of review under § 2254(d) and the limitation to the state

court record does not apply here.” George agreed.
Nevertheless, three days before oral argument the Ninth Circuit

instructed the parties to be prepared to discuss the applicable standard of
review, and its questions for George at argument focused on his allegations in
state habeas. The panel did not order any briefing on whether § 2254(d) was

satisfied based on the state court record but answered the question it raised
against George, holding that George, an incarcerated pro se inmate with a
second-grade reading level who attended special education classes, “did not

allege sufficient facts regarding how his attorney ‘misadvised’ him” “to reject
a favorable plea deal.”

The Ninth Circuit’s treatment of George’s case repeats its error in
Sineneng-Smith, 140 S. Ct. 1575, 1578, a federal criminal appeal where

“[i]nstead of adjudicating the case presented by the parties,” the Ninth
23

Circuit raised a new issue on its own and decided it against the government.

Respondent’s position that § 2254(d) did not apply and the standard of review
was de novo was not a mistaken statement made in a single brief or under
the pressure of oral argument, but instead reflected a conscious change in
position to try to achieve his own litigation goals that he articulated in briefs

in district court and the court of appeals.6 The “appeals panel departed so

drastically from the principle of party presentation as to constitute an abuse

of discretion,” and the Court should “vacate the Ninth Circuit’s judgment
and remand the case for an adjudication of the appeal attuned to the case
shaped by the parties rather than the case designed by the appeals panel.”
Sineneng-Smith, 140 S. Ct. at 1578.

This is no idle issue to George, who would be released from prison for
time served if he wins habeas relief, since the remedy is to make the

6 George’s case is thus distinguishable from the case cited by the panel,
Amado, 758 F.3d at 1133 n.9, where “neither party addressed the issue of the
proper standard by which [the court was] to review Amado’s habeas claim”
and the court concluded it had “the obligation to apply the correct standard,
for the issue is non-waivable.” Likewise, in Hernandez v. Holland, 750 F.3d
843, 855-857 (9th Cir. 2014), Respondent failed to brief whether 28 U.S.C. §
2254(d) applied to two claims. Here, by contrast, Respondent addressed
whether § 2254(d) applied in briefs in district court and the Ninth Circuit and
argued that a federal evidentiary hearing was required and that George’s
claim should be reviewed de novo. See Day v. McDonough, 547 U.S. 198, 202
(2006) (cited in Sineneng-Smith, 140 S. Ct. at 1579) (“we would count it an
abuse of discretion to override a State’s deliberate waiver of a limitations
defense”); Reynoso v. Giurbino, 462 F.3d 1099, 1110 & n.9 (9th Cir. 2006).
24

prosecutor re-offer the original three-year plea deal. Lafler v. Cooper, 566
U.S. 156, 171, 174 (2012). It is an important issue for other petitioners as
well, given the danger that the overzealous application of AEDPA poses to

the vitality of the writ of habeas corpus. Boumediene v. Bush, 553 U.S. 723,
739 (2008) (“The Framers viewed freedom from unlawful restraint as a

fundamental precept of liberty, and they understood the writ of habeas

corpus as a vital instrument to secure that freedom.”).
III.

George Adequately Pleaded an Ineffective Assistance of
Counsel Claim in State Habeas and 28 U.S.C. § 2254(d)
Does Not Bar a Federal Evidentiary Hearing or Relief

If the Court does not grant certiorari on George’s first question, it
should on his second: Whether George adequately pleaded an ineffective

assistance of counsel claim in state habeas.
As shown below, the Ninth Circuit opinion is flatly wrong that George

failed to “allege sufficient facts regarding how his attorney ‘misadvised’ him”
“to reject a favorable plea deal,” and that the state court reasonably denied
his claim accepting his allegations as true, as required under state law.

Cullen v. Pinholster, 563 U.S. 170, 188 n.12 (2011). The panel’s heightened

pleading requirement, applied against a pro se petitioner with a second-grade
reading level whose request for a corroborating declaration from trial counsel
was ignored, is contrary to this Court’s law and effectively renders federal

habeas a dead letter. Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir. 2004)

25

(§ 2254(d) “standard is not impossible to meet”); Miller-El v. Cockrell, 537
U.S. 322, 340 (2003) (“Even in the context of federal habeas, deference does

not imply abandonment or abdication of judicial review. Deference does not

by definition preclude relief.”); Doody v. Ryan, 649 F.3d 986, 1003 (9th Cir.
2011) (en banc) (“[I]f we succumb to the temptation to abdicate our

responsibility on habeas review, we might as well get ourselves a big, fat

rubber stamp, pucker up, and kiss The Great Writ good-bye.”). This case
gives the Court the opportunity to clarify its habeas pleading jurisprudence
and affirm that allegations like those presented here are sufficient to state a

constitutional claim in state habeas and to enable federal courts to hold an

evidentiary hearing and grant relief when state courts deny relief without
fact development.
A.

Habeas Pleading Law

George asserted his ineffective assistance claim in habeas petitions
filed pro se in the Riverside County Superior Court, the California Court of
Appeal, the California Supreme Court, and federal district court. Federal

courts liberally construe pro se California state habeas petitions. Davis v.
Silva, 511 F.3d 1005, 1009 (9th Cir. 2008); see also Haines v. Kerner, 404 U.S.

519, 520 (1972) (per curiam) (allegations by pro se state inmates held “to less
stringent standards than formal pleadings drafted by lawyers”).

26

California and federal habeas pleading standards are similar in many
respects. Under California law, a habeas petitioner bears the “burden

initially to plead sufficient grounds for relief, and then later to prove them” if
and when the court issues an order to show cause (“CSC”). People v. Duvall,
886 P.2d 1252, 1258 (Cal. 1995) (original emphasis). The petition ‘“must . . .

specify the facts on which the petitioner bases his or her claim.’” People v.

Romero, 883 P.2d 388, 391 (Cal. 1994); see also Rule 2(c) of the Habeas Rules
Governing Section 2254 Cases in the United States District Courts (“The

petition must: . . . state the facts supporting each ground” for relief).
“The petition should both (i) state fully and with particularity the facts

on which relief is sought” “as well as (ii) include copies of reasonably
available documentary evidence supporting the claim, including pertinent
portions of trial transcripts and affidavits or declarations.” Duvall, 886 P.2d

at 1258; see also Mayle v. Felix, 545 U.S. 644, 655 (2005) (“[n]otice pleading

is not sufficient, for the petition is expected to state facts that point to a real
possibility of constitutional error”) (quotation marks omitted).

“Conclusory allegations made without any explanation of the basis for

the allegations do not warrant relief, let alone an evidentiary hearing.”

Duvall, 886 P.2d at 1258; see also Blackledge v. Allison, 431 U.S. 63, 75
(1977) (vague or conclusory allegations warrant dismissal). However, “where

the Superior Court determines that the habeas corpus petition has pleading
27

defects and believes that correction of the defects is necessary to ensure a full
and fair hearing and a determination of the cause, the superior court has the

discretion to give notice of the defect and grant leave to amend or supplement

the petition.” Jackson v. Superior Court, 118 Cal. Rptr. 3d 81, 90 (Cal. Ct.
App. 2010); Duvall, 886 P.2d at 1264 (courts should not construe habeas

pleadings in a parsimonious manner; “technical and inadvertent pleading
errors” should “not lead to premature dismissals that would frustrate the
ends of justice”); see also Ross v. Williams, 950 F.3d 1160, 1172-73 (9th Cir.

2020) (en banc), cert. pet. filed sub nom. Hutchings v. Ross, July 23, 2020
(Supreme Court case no. 20-86).

On an ineffective assistance of counsel claim, “where access to critical
information is limited or denied to one party, where it is unreasonable to
expect a party to obtain information at the pleading stage, or where the
proper resolution of a case hinges on the credibility of witnesses, the general
rule requiring the pleading of facts should not be enforced in such a

draconian fashion so as to defeat the ends of justice.” Duvall, 886 P.2d at
1266 (holding that the Court of Appeal erred by failing to order an

evidentiary hearing to determine the truth of petitioner’s allegations on his
ineffective assistance claim where trial counsel had died).
California requires pro se petitioners to use habeas corpus form MC-

275. Cal. R. Ct. 4.551(a)(1). George used this form for all three of his state
28

petitions. The form instructs petitioners to “[t]ell your story briefly without
citing cases or law.” Pet. App. 76. It states: “You must state facts, not

conclusions. For example, if you are claiming incompetence of counsel, you
must state facts specifically setting forth what your attorney did or failed to

do and how that affected your trial.” Id. The form further explains: “A rule

of thumb to follow is, who did exactly what to violate your rights at what time
(when) or place (where). (If available, attach declarations, relevant records,

transcripts, or other documents supporting your claim.).” Id. (original
emphasis).
“When presented with a petition for a writ of habeas corpus, a
[California] court must first determine whether the petition states a prima

facie case for relief -- that is, whether it states facts that, if true, entitle the
petitioner to relief -- and also whether the stated claims are for any reason

procedurally barred.” Romero, 883 P.2d at 391; Duvall, 886 P.2d at 1258; In
re Rosenkrantz, 59 P.3d 174, 217 (Cal. 2002) (“We presume that the trial

court accepted as true petitioner’s undisputed factual allegations, including

any undisputed matters contained in the exhibits incorporated by reference
into his pleadings.”).

“If no prima facie case for relief is stated, the court will summarily
deny the petition.” Duvall, 886 P.2d at 1258; Romero, 883 P.2d at 391. “If,
however, the court finds the factual allegations, taken as true, establish a
29

prima facie case for relief, the court will issue an OSC.” Duvall, 886 P.2d at

1258. After receiving pleadings, the court may rule on the papers if there are
no disputed factual questions, or order an evidentiary hearing if there are.

Id. at 1261.

B.

George’s State Court Allegations and Evidence

As Respondent acknowledges, George’s three state habeas petitions are
“identical” or “largely identical” to one another. Supra at 10. Because the

Superior Court’s denial of relief is the last reasoned decision for purposes of
federal review,7 and George’s petition in that court was the focus of the Ninth

Circuit’s questions at oral argument, George submits that petition in the

accompanying appendix and quotes from it below. He also provides parallel
cites below to the habeas petitions he later filed in the California Court of
Appeal and California Supreme Court.
In his state petitions, George alleged that “Petitioner contends that

ineffective representation at the pretrial stage of his criminal proceeding
caused him to proceed to trial rather than to accept an offer of a plea bargain

that would have been approved by the court. Petitioner has been deprived of

the effective assistance of counsel guaranteed by U.S. Const., 6th Amend.,

7 The Court “looks through” the unreasoned denials by the Court of
Appeal and Supreme Court to the Superior Court’s denial. Supra at 9-10, 21.

30

Cal. Const., Art. I, § 15.” Pet. App. 77; district court docket 11-5 at ECF p. 4;

district court docket 11-7 at ECF p. 7.
George alleged that while he was waiting for his attorney Sean Davitt

to appear in court on October 17, 2012, he heard a conversation between his
co-defendant MacFalling and MacFalling’s attorney, Graham Donath.

George asked Donath about the three-year plea offer that he was explaining
to MacFalling. Donath told George to talk to his lawyer about the deal. Pet.

App. 79-80; docket 11-5 at ECF pp. 6-7; docket 11-7 at ECF pp. 9-10.
George alleged that when Davitt appeared in court a short time later,

he asked Davitt about the offer. Davitt replied that there was no three-year

offer. George told Davitt he had learned from Donath that in fact a threeyear offer was on the table. George’s co-defendants MacFalling and Gamble
were present during this conversation. George asked Davitt to check with his

co-defendants’ attorneys whether a three-year deal had been offered. Davitt

said he would look into it, walked away, and returned and said there was a
three-year deal available. Davitt then told George: “I don’t want you to mess

up your life like both of your co defendants therefore we will not take the

deal. I can ‘beat the charges.’” Pet. App. 80-81; docket 11-5 at ECF pp. 7-8;
docket 11-7 at ECF pp. 10-11.
George alleged that “[a]fter the court session on October 17, 2012

Petitioner explained to Mr. Davitt that he thinks he should take the 3 year
31

deal because his two co-defendants MacFalling and Gamble are going to take
the deal which will be the best thing to do. Mr. Davitt explained to Petitioner
‘Your family hired me to look out for your best interest so stop listening to jail

house lawyers.’ Mr. Davitt explained that they will talk about it later before
the next court date (10-24-12).” Pet. App. 81; docket 11-5 at ECF p. 8; docket
11-7 at ECFp. 11.

George alleged that on October 24, 2012, while he went to Department

31 for a preliminary hearing, co-defendants Gamble and MacFalling took the
three-year plea deal on the advice of their attorneys Graham Donath and

John Dorr in Department 63 before Judge Helios J. Hernandez. George
reiterated that “Petitioner was advised by attorney Sean Davitt on 10-17-12

not to take the 3 year deal.” Pet. App. 82; docket 11-5 at ECF p. 9; docket 11-

7 at ECFp. 12.
George continued: “Petitioner contends that after talking to his family

it was discovered that the lawyer Mr. Sean Davitt misadvised Petitioner
when Mr. Davitt advised Petitioner on 10-17-12 (after Petitioner told Mr.
Davitt there was a 3 yr deal) not to accept the deal because he could ‘beat the

charges.’ The misadvice given to Petitioner on 10-17-12 was solely for

attorney Sean Davitt monetary gain [sic] by taking Petitioner to the
preliminary hearing and to trial. If Petitioner would have accepted the 3
year deal attorney Sean Davitt would not have received the large sum of

32

money from Petitioner’s family. Petitioner explained this to the Probation
Dept. See Exhibit 5 pg 11 line 19 through 31.” George alleged that “the

notarize[d] declaration of Carol A. King (Petitioner’s mother) . . . explains the

agreement to represent Petitioner by Sean A. Davitt. Now marked as Exhibit

6.” Pet. App. 83 (original emphasis); docket 11-5 at ECF p. 10; docket 11-7 at
ECFp. 13.

George also alleged that “his level of comprehension and
communication disabled Petitioner mentally” and cited test scores and special

education reports from the attached Exhibit 10. Pet. App. 85-86; docket 11-5

at ECF pp. 12-13; docket 11-7 at ECF p. 15-16. He alleged that “in light of
Petitioner’s mental disabilities Petitioner’s attorney was ineffective to advise

Petitioner to reject [] plea offer of 3 years.” Pet. App. 86; docket 11-5 at ECF
p. 13; docket 11-7 at ECF p. 16. He concluded his allegations by stating: “See
Exhibits l-through-10 attached behind this page.” Id.
Exhibits 3 and 4 are abstracts of judgment showing that on October 24,

2012, George’s co-defendants MacFalling and Gamble entered guilty pleas for

a three-year sentence. Pet. App. 93, 96; docket 11-5 at ECF pp. 45, 48; docket
11-7 at ECFpp. 39, 42.

Exhibit 5 is a pre-sentence probation report containing George’s
statement that “he was offered a deal prior to the trial and he did not accept

it, because his lawyer advised he could ‘beat the charges’ if he went through a
33

trial. His family wasted money on his attorney, because he did not do
anything for him.” Pet. App. 110; docket 11-5 at ECF p. 63; docket 11-7 at

ECFp. 58.
Exhibit 6 is a declaration by George’s mother, Carol King, explaining

that she hired Davitt to represent George; Davitt explained that his fee of
$6,300 would cover his services through the preliminary hearing; that his fee

was an additional $10,000 for trial; and that she paid Davitt $4,600 before
the preliminary hearing and $8,300 afterwards, owing a balance of $5,400.
She said that she explained to Davitt that George’s co-defendants had told

him that the 3-year deal was offered to him. She said that “Davitt insisted
that Chris George go to trial because Mr. Davitt did not want him to mess his

life up. Mr. Sean Davitt also stated that Chris Anthony George will have a
better chance at trial due to the fact that the co-defendants were taking the
plea deal and Chris George would be tried separate from Mr. Gamble and Mr.

MacFalling.” King told Davitt that she and her family were in agreement
that “it would be best if Chris takes the same deal of his co-defendants [sic.].
He insisted once again that he has a good chance of fighting the case. Never
once was I told if he’s found guilty Chris Anthony George will be facing 23

years in prison.” She was disturbed that Davitt advised her son not to take

the deal when her son’s co-defendants took the deal on the advice of their

34

lawyers. She said she believes Davitt took the case to trial to obtain more
legal fees. Pet. App. 126; docket 11-5 at ECF p. 79; docket 11-7 at ECF p. 74.

Exhibit 10 contains school and prison records reflecting George’s
second-grade reading level, attention and learning problems, and special

education history. Pet. App. 166-175; docket 11-5 at ECF pp. 119-128; docket
11-7 at ECFpp. 111-120.
George also submitted a memorandum that cited Lafler, 566 U.S. 156,

and the ineffective assistance test of Strickland v. Washington, 466 U.S. 668
(1984); alleged that “[a] claim of deficient performance depends on whether

the advice and other communications regarding the offered plea bargain were
within the range of competence demanded of attorneys in criminal cases”;

alleged that “[c]ounsel should inform the defendant of the prosecution and
defense evidence and assess its value at trial”; and alleged that Davitt did not

adhere to the standards required of defense counsel, which made his
performance deficient. Pet. App. 179-192; docket 11-5 at ECF pp. 14-27;
docket 11-7 at ECF pp. 17-30. He said Davitt advised him to reject the deal
because he didn’t want him to mess up his life like his co-defendants and he

could beat the charges. Pet. App. 185; docket 11-5 at ECF p. 20; docket 11-7
at ECF p. 21. He alleged that “absent ineffective counsel, he would have

accepted a plea offer” for a “favorable sentence,” as his co-defendants did.
Pet. App. 190; docket 11-5 at ECF p. 25; docket 11-7 at ECF p. 28.

35

One week after the petition was filed, the Superior Court denied it for
failure to state a prima facie case. This is the last reasoned decision on

George’s claim and the relevant decision for federal review. The Attorney
General was never ordered to respond to any of George’s state petitions.
C.

George Adequately Pleaded His Claim and the State
Court’s Summary Denial Is Unreasonable Under
§ 2254(d)

The Ninth Circuit is just plain wrong that George failed to allege
sufficient facts regarding how Davitt misadvised him and caused him to

reject the plea deal. George’s allegations and exhibits presented his “claim
with more than sufficient particularity,” Dye, 546 U.S. at 4, and “pointfed] to

a real possibility of constitutional error.” Mayle, 545 U.S. at 655.
As instructed by the form petition, George specifically stated what his

lawyer did and said (“I don’t want you to mess up your life like both of your co

defendants therefore we will not take the deal. I can ‘beat the charges.’”);
when and where the misadvice occurred (after a court session on October 17,

2012); who was present when it occurred (George, Davitt, and co-defendants
MacFalling and Gamble); and how it affected his trial (the misadvice “caused

Petitioner to proceed to trial rather than to accept an offer of a plea bargain

that would have been approved by the court”; “absent ineffective counsel, he

would have accepted a plea offer” for a “favorable sentence”).

36

George also submitted “copies of reasonably available documentary

evidence,” including the probation report recounting counsel’s misadvice; his

mother’s declaration reporting Davitt’s statement that George would have a
better chance at trial because he would be tried separately given his co­

defendants’ pleas; and the abstracts of judgment showing that the court
approved the three-year deals accepted by his similarly-situated co­
defendants, resulting in sentences one-seventh of what George received after

trial.
Although George did not submit his appellate opinion or all of his trial

transcripts, they are part of the state court record in habeas, Pinholster, 563

U.S. at 188 n.12, In re Reno, 283 P.3d 1181, 1250 (Cal. 2012), and they
further show the strength of the prosecution’s case and that reasonable

counsel would have recommended the deal given the lack of a viable defense.

Although he did not submit a declaration from Davitt, the federal record
shows that he asked Davitt for one before he filed his first state petition but

Davitt did not respond to his request. The lack of a declaration from trial
counsel was a reason to order an evidentiary hearing, not to summarily deny
relief without one. Duvall, 886 P.2d at 1266; see also Reeves v. Alabama, 138

S. Ct. 22, 26 (2017) (Sotomayor, J., dis. from denial of cert.).
George thus adequately pleaded a prima facie case of ineffective

assistance under Strickland and Lafler by alleging specific facts to support

37

each element of his claim, i.e., that counsel’s advice to reject the plea deal and

proceed to trial was objectively unreasonable under prevailing professional
norms8 and that but for counsel’s ineffective advice, there is a reasonable

probability George would have taken the deal, the court would have accepted

it (it did for his similarly-situated co-defendants), and George would have
received a less severe sentence (three years rather than 21). Lafler, 566 U.S.

at 162-164, 174; Ross, 950 F.3d at 1168 (ineffective assistance claim
adequately pleaded when it alleged that “trial counsel was ineffective for

failing to object when the State failed to ‘provide any notice that it intended
to present expert testimony’ from the State’s witness about what ‘distract

thefts’ were”); Dorsey v. Kelly, 112 F.3d 50, 52-53 (2d Cir. 1997) (similar).
Accepting George’s allegations and unrebutted evidence as true, the

state court could not reasonably deny relief for failure to state a prima facie

case under § 2254(d)(1) or (d)(2). See, e.g., Lafler, 566 U.S. at 162-164;
Brumfield v. Cain, 135 S. Ct. 2269, 2277-2282 (2015) (state court’s denial of

capital habeas petitioner’s intellectual disability claim without an evidentiary
hearing unreasonable under § 2254(d)(2) where petitioner was not obligated
to prove his claim at pleading stage); Earp v. Ornoski, 431 F.3d 1158, 1172-

8 The allegation that counsel advised against the deal to earn more fees
by going to trial in and of itself states a claim of deficient performance.
Strickland, 466 U.S. at 686, 688, 692. George alleged much more than that.
38

1173 (9th Cir. 2005) (California Supreme Court’s summary denial of

ineffective assistance claim unreasonable under § 2254(d)(2); remanding for
evidentiary hearing); Nunes v. Mueller, 350 F.3d 1045, 1054-1056 (9th Cir.

2003) (California court’s summary denial of ineffective assistance-plea
bargaining claim for failure to state prima facie case unreasonable under §

2254(d)(1) and (2)).
Moreover, with § 2254(d) satisfied based on the state court record, the

federal court properly held an evidentiary hearing (as Respondent
acknowledged): George (1) presented at least a colorable claim for relief; (2)

was never afforded a hearing in state court; and (3) diligently presented the
factual basis of his claim in state court. Brumfield, 135 S. Ct. at 2275-2276;
Earp, 431 F.3d at 1166-1167; Schriro v. Landrigan, 550 U.S. 465, 468, 474,

481 (2007). And like the petitioners in Brumfield and Nunes, once George

received the chance to prove his claim at a hearing, he did so.

Accordingly, the Court should grant certiorari, hold that 28 U.S.C. §

2254(d) is satisfied based on the state court record, and remand for the Ninth
Circuit to consider George’s claim on de novo review, as argued by the parties
and as the magistrate judge and district court had done. The onerous
pleading standard applied by the Ninth Circuit is contrary to federal and

California law, and should not be permitted to preclude a federal evidentiary
hearing or relief.

39

CONCLUSION

For the foregoing reasons, the Court should grant George’s petition,
reverse the judgment of the Ninth Circuit, and remand for the Ninth Circuit
to determine whether George is entitled to relief on de novo review based on

the evidence presented at his federal evidentiary hearing.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: September 23, 2020
MARK R. DROZDO'WSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

40

